Best Practices Review    December 6, 2007

        Best Practices for Audit and
    Financial Advisory Committees Within
         the Department of Defense
          Report No. D-2008-6-001
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
 CHIEF FINANCIAL OFFICER
COMMANDANT OF THE MARINE CORPS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
 AND COMPTROLLER)
DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, MISSILE DEFENSE AGENCY
DIRECTOR, DEFENSE COMMISSARY AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, TRICARE MANAGEMENT ACTIVITY
NAVAL INSPECTOR GENERAL
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
604-9808.

Suggestions for Future Reviews

To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
fax (703) 604-9808. Ideas and requests can also be mailed to:


                                       OAIG-APO
                         Department of Defense Inspector General
                           400 Army Navy Drive (Room 1015)
                               Arlington, VA 22202-4704
  Mission of the DoD Inspector General

The Office of the Inspector General promotes integrity, accountability, and
improvement of Department of Defense personnel, programs, and operations to
support the Department’s mission and to serve the public interest.


           Policy and Oversight Mission
The Office of the Deputy Inspector General for Policy and Oversight provides
oversight policy and support to DoD and conducts assessments to improve DoD
programs and operations.


     Contribution to Good Government
Audit Policy and Oversight contributes to good government by performing
independent reviews to ensure that DoD auditors and non-DoD auditors who audit
DoD programs or functions comply with generally accepted government auditing
standards. Audit Policy and Oversight performs a range of work to support DoD,
including:

       •   Assessing the reasonableness of DoD implementation of contract audit
           reports to maximize benefit to the Government.
       •   Evaluating and providing best practices to the DoD community.
       •   Providing for external quality control reviews.
       •   Ensuring that non-Federal auditors understand and comply with
           appropriate standards and procedures.
       •   Developing and maintaining DoD directives, instructions, and other
           guidance related to audits and audit standards.
       •   Commenting on and coordinating audit-related Federal Acquisition
           Regulation, the Defense Federal Acquisition Regulation Supplement, Cost
           Accounting Standards, legislation, policies, procedures, and standards.
       •   Providing technical and/or consultative advice on audit standards and
           practices.
       •   Looking independently at problems and making recommendations.




              Core Values
     Accountability Integrity Efficiency
                                           Foreword

On March 6, 2003, the Under Secretary of Defense (Comptroller)/Chief Financial Officer issued
a memorandum entitled “Establishment of Financial Statement Audit Committees,” which
directed the establishment of audit committees within the Department. DoD Financial
Management Regulation, Volume 6B, Chapter 1, January 2006, defined the purpose and
responsibilities of committees helping with audit preparedness and committees performing
financial audit oversight. DoD required committees for audit preparedness to make
recommendations to help their organizations improve business operations through improvements
to financial reporting processes and procedures. The Department required financial audit
oversight advisory committees to provide independent oversight of an organization’s annual
financial statement audit, risk management plan, internal control framework, and compliance
with external requirements.

During our review, we identified best practices for financial audit advisory committees within
DoD, other Federal agencies, and the public and private sectors (refer to Appendix A for a list of
organizations that participated in this review). This document contains the DoD Office of
Inspector General suggested best practices for audit and financial advisory committees within
DoD. The best practices were designed to assist DoD agencies in preparing financial statements
and conducting the annual financial statement audit mandated by the Chief Financial Officer’s
Act of 1990. Some best practices were included in this report because of requests and
suggestions from DoD committee members and advisors. Areas of interest within DoD were
methods to evaluate committee performance, roles and responsibilities of the committee when
performing oversight of a financial statement audit, and strategies to recruit committee members.
The document also contains guidance on other topics such as developing a charter, developing a
mission statement, and evaluating committee members’ qualities and expertise.

Financial audit advisory committees benefit an organization either by assisting with audit
preparedness or by providing increased confidence in the credibility of the organization’s
financial statements. We recognize that DoD committees may not be following all of the best
practices described in this document because the committees are relatively new. If effectively
designed, the committee can be a strategic partner in conducting quality audits, preparing
auditable financial statements, and improving business operations. Within this best practices
document, we have provided you with a framework for establishing, operating, and evaluating a
financial audit advisory committee for committees focused on audit preparedness and
committees focused on financial statement audit oversight.
Table of Contents
Introduction
  Objective                                                                    1
  Background                                                                   1
  DoD Guidance on Financial Audit Advisory Committees                          2
  Highlights of DoD Financial Audit Advisory Committees                        3
  Committee Advisors                                                           8

Financial Audit Advisory Committee Best Practices
  A. Financial Audit Advisory Committee Benefits                               9
        Benefits Affecting Agency Management                                   9
        Benefits of Independent and Objective Committees                       9
        Benefits for Audit Preparedness                                        10

  B. Clarifying the Responsibilities of a Financial Audit Advisory Committee   10
        Providing Oversight                                                    10
        Acting as a Liaison                                                    10
        Monitoring Internal Controls                                           10
        Assisting With Audit Preparedness                                      11
        Educating Personnel                                                    11

  C. Working With or on a Financial Audit Advisory Committee                   11
       Role of Management                                                      12
       Role of the Committee                                                   12
       Role of the Member                                                      12
           Serving in an Advisory Role                                         12
           Communicating the Committee’s Work                                  12

  D. Establishing a Financial Audit Advisory Committee                         13
        Developing a Charter                                                   13
        Developing a Mission Statement                                         15
        Selecting a Chairperson                                                15
        Constituting a Committee                                               18
             Evaluating the Committee Composition                              18
             Implementing Audit Preparedness Working Groups                    18
        Recruiting Committee Members                                           18
             Continuity of Membership                                          19
             Independent Members                                               19
             External Members                                                  19
             Recruitment for Audit Preparedness                                20
        Evaluating Committee Member Qualities and Expertise                    21
  E. Operating a Financial Audit Advisory Committee                          24
        Orienting and Training Members                                       24
        Essential Resources for Committees                                   25
        General Activities                                                   26
            Serving as an Intermediary                                       27
            Staying Abreast of Agency Operations                             27
            Assisting With Other Activities                                  28
        Meetings with Agency Officials                                       28
        Reporting                                                            29
        Meetings, Agendas, and Minutes                                       30
            Frequency of Meetings                                            30
            Checklist                                                        30
            Executive Sessions                                               31
            Meeting Preparation and Coordination                             31
            Agendas                                                          31
            Minutes                                                          31

  F. Evaluating Performance                                                  32
        Formal Evaluations                                                   32
        Informal Evaluations                                                 32

Conclusion                                                                   33

Appendixes

    A.   Scope and Methodology                                               34
    B.   DoD Comptroller-Required Audit Committees                           36
    C.   Sample Charter for a Federal Advisory Committee Act-
           Compliant Audit Committee                                         37
    D.   Sample Financial Audit Advisory Committee Charter                   43
    E.   Sample Committee Charter Evaluation Checklist                       47
    F.   Sample Financial Audit Advisory Committee                           49
           Member Appointment Letter
    G.   Sample Committee Annual Activity Checklist                          50
    H.   Sample Audit Preparedness Committee Self-Evaluation Questionnaire   52
    I.   Resources for Committees                                            54
    J.   References                                                          55
    K.   Report Distribution                                                 56
                                          Introduction
Objective
             The objective of the review was to identify criteria, purposes, and best practices for
             operations of audit and financial advisory committees that would benefit DoD in
             preparing auditable financial statements and conducting the annual financial
             statement audit mandated by the Chief Financial Officer’s Act of 1990.

Background
             In 1972, the U.S. Securities and Exchange Commission recommended that publicly
             held companies establish audit committees composed of independent directors. By
             1974, the Securities and Exchange Commission began to require public disclosure of
             the independence of audit committee members. In 1998, the public stock exchanges
             sponsored a Blue Ribbon Committee to study how audit committees could be more
             effective.

             Blue Ribbon Committee on Audit Committees. The Blue Ribbon Committee
             recommended that companies establish independent audit committees with a
             minimum of three financially literate members and one financial expert member.
             Additionally, the Blue Ribbon Committee recommended that audit committees adopt
             a formal charter to describe their role in internal control activities 1 . The Securities
             and Exchange Commission and public stock exchanges adopted the requirement for
             independent audit committee members soon after the report was issued.

             Sarbanes-Oxley Act. In response to numerous corporate accounting scandals,
             which diminished public trust in accounting and reporting practices, Congress passed
             the Sarbanes-Oxley Act in 2002. This legislation increased audit committees’
             responsibilities and authority, increased committee membership requirements, and
             required greater independence of committees for publicly traded companies.

             Government Auditing Standards. The January 2007 Revision of Government
             Auditing Standards acknowledges the role of audit committees in corporate
             governance. The standards contain the following guidance:

                   “Those charged with governance have the duty to oversee the strategic direction of the
                  entity and obligations related to the accountability of the entity. This includes overseeing
                  the financial reporting process, subject matter, or program under audit including related

1
 Internal control comprises the plans, policies, methods, and procedures to meet the organization’s mission, goals,
and objectives. Internal control includes the processes and procedures for planning, organizing, directing, and
controlling program operations, and management’s system for measuring, reporting on, and monitoring program
performance.

                                                         1
        internal controls…. In some entities, multiple parties may be charged with governance,
        including oversight bodies, members or staff of legislative committees, boards of
        directors, audit committees, or parties contracting the audit.”


DoD Guidance on Financial Audit Advisory
Committees
     On March 6, 2003, the Under Secretary of Defense (Comptroller)/Chief Financial
     Officer issued a memorandum entitled “Establishment of Financial Statement Audit
     Committees.” The memorandum directed the establishment of audit committees for
     21 DoD entities (refer to Appendix B for a complete listing). The memorandum also
     required the DoD Office of the Deputy Financial Officer, the DoD Office of Inspector
     General, and the Defense Finance and Accounting Service to provide representation
     on each committee.

     Financial Management Regulation. DoD Financial Management Regulation,
     Volume 6B, Chapter 1, January 2006, provides additional guidance regarding audit
     committees. The Financial Management Regulation states that the purpose of the
     audit committee is to establish audit requirements, identify contract deliverables,
     monitor the execution of the contract, and identify and assist with the resolution of
     obstacles to an unqualified opinion. When the organization is prepared for audit, the
     committee’s purpose is to provide a forum for researching, recommending, and
     issuing guidance on accounting and auditing issues. Beyond clarifying the purpose of
     audit committees, the guidance required the establishment of the following additional
     audit committees:

        •   United States Special Operations Command,
        •   Tricare Management Activity, and
        •   Service Medical Activity.

     Memorandum of May 15, 2007. On May 15, 2007, the Under Secretary of
     Defense (Comptroller)/Chief Financial Officer issued a memorandum titled,
     “Establishment of the Audit and Financial Management Advisory Committee,” to
     establish the DoD Audit and Financial Management Advisory Committee, which will
     operate under the provisions of the Federal Advisory Committee Act of 1972. The
     memorandum states that the committee will provide independent advice and
     recommendations to DoD on financial management, including the financial reporting
     process, systems of internal controls, the audit process, and processes for monitoring
     compliance with applicable laws and regulations. The committee is not to make
     decisions, conduct DoD operations, or perform functions that can be completed by or
     with existing DoD resources.




                                           2
             Definition and Roles of Financial Audit Advisory Committees within DoD. 2 A
             financial audit advisory committee within DoD is generally responsible for providing
             independent oversight of an organization’s annual financial statement audit, risk
             management plan, internal control framework, and compliance with external
             requirements. Acting in an advisory role, the committee promotes independence,
             facilitates communication between management and the independent public
             accountant, 3 and enhances accountability. The scope of each committee’s work
             varies depending on the status of financial management within the organization.

             Definition of Audit Preparedness Committee within DoD. Financial audit
             advisory committees generally serve one of two functions: audit preparedness or
             financial statement audit oversight. Committees for audit preparedness provide
             oversight and make recommendations to help the organization improve business
             operations through improvements to financial reporting processes and procedures.
             The scope of each committee’s work depends on the status of financial management
             within the organization. When the entity is prepared to undergo a financial statement
             audit, the committee’s focus shifts from audit preparedness to oversight of the
             financial statement audit, and the committee assumes additional oversight and
             advisory responsibilities.

Highlights of DoD Financial Audit Advisory
Committees
             We reviewed 16 committees. Of those, 13 were established by DoD guidance. We
             looked at three additional committees – Navy Morale, Recreation and Welfare and
             Navy Exchange Service; the Marine Corps, Personal and Family Readiness Division;
             and Defense Contract Management Agency – the first two because they use
             nonappropriated funds and the third because it formed a committee on its own
             initiative. During our review, we identified best practices for financial audit advisory
             committees within DoD, other Federal agencies, and the public and private sectors.
             This document summarizes information obtained through interviews with audit
             committee members, advisors, and published best practices. We have used
             documentation obtained from audit committees at the Department of the Air Force,
             Defense Commissary Agency, U.S. Small Business Administration, U. S. Holocaust
             Memorial Museum, and the U.S. Postal Service, to develop sample documents
             included in the appendixes.




2
  The terms financial audit advisory committee and audit committee are used interchangeably in this document.
Both terms refer to committees that are acting as advisors to help organizations improve their financial reporting
processes and business operations.
3
  To differentiate among the terms internal auditor, external auditor, and Inspector General, we have used the term
“independent public accountant” to refer to the external auditor selected to conduct the financial statement audit.

                                                          3
During our reviews with representatives from 16 DoD audit committees, we
identified numerous innovative best practices and audit preparedness approaches. Of
the 16 committees reviewed, 10 focused on audit preparedness, while 6 performed
oversight of the financial statement audit. The table below indicates the focus of each
committee we reviewed.

                      Focus Areas of DoD Audit Committees

                                                                     Financial
                                                    Audit            Statement
              DoD Organization                   Preparedness      Audit Oversight
Military Retirement Fund                                                  X
Department of the Army                                  X
Department of the Navy                                  X
Department of the Air Force                             X
Medicare Eligible Retiree Health Care Fund                                  X
Defense Finance and Accounting Service                                      X
Defense Logistics Agency                                X
Defense Commissary Agency                                                   X
Missile Defense Agency                                  X
Defense Information Systems Agency                      X
Defense Advanced Research Projects Agency               X
Tricare Management Activity                             X
Service Medical Activity                                X
Defense Contract Management Agency                      X
Navy Morale, Recreation and Welfare and                                     X
Navy Exchange (Navy Exchange
Service/Naval Installations Command)
Marine Corps, Personal and Family Readiness                                 X
Division




                                     4
The following pages highlight best practices followed by selected DoD financial audit
advisory committees. Additional guidance on implementing these best practices is
contained in this report.

Military Retirement Fund. The Military Retirement Fund audit committee
monitored the work of the independent public accountant during the financial
statement audit. Committee membership included representatives from the
Government Accountability Office, DoD Office of the Actuary, and Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer. All members
participated in committee meetings and provided technical advice throughout the
audit. The contracting officer’s technical representative, the independent public
accountant, and the actuarial representative presented regular briefings regarding the
status of the audit to the committee.

Department of the Army. The Department of the Army created a Web site link that
enabled committee members to electronically submit anonymous suggestions to
improve the committee. To ensure that committee members remain focused on their
audit preparedness goals, each committee briefing package contained a graphic
summary of the five Financial Improvement Initiative phases.

Department of the Navy. The Department of the Navy developed an audit
committee Web site to enhance communication among members and increase
awareness of the Department of the Navy’s audit preparedness efforts. The Web site
included the audit committee charter, meeting minutes, articles of interest, and the
audit committee newsletter. The newsletter provided a high-level summary of
significant issues related to audit preparedness efforts and communicated the work of
the committee throughout the entire organization. The Marine Corps representative
developed a briefing tool to educate nonfinancial personnel on the importance of
accurate financial reporting, improved business processes, and the effect of the
financial statement audit on the organization.

Department of the Air Force. A senior representative from another Federal agency
chaired the Department of the Air Force audit committee. Committee membership
included representatives from other Federal agencies that have successfully
performed a first-year financial statement audit. The committee developed a mission
statement, which was separate from the committee charter. Department of the Air
Force personnel briefed committee members on the business operations and financial
reporting practices of the Department of the Air Force and DoD.

Medicare Eligible Retiree Health Care Fund. The Medicare Eligible Retiree
Health Care Fund committee was a component of Tricare Management Activity. The
committee oversaw the annual financial audit of the Medicare Eligible Retiree Health
Care Fund. Committee membership included representatives from the Government
Accountability Office, the DoD Office of the Actuary, and the Tricare Investment
Board. The committee chairperson prepared an executive summary of the committee
meeting minutes for distribution to senior leaders within the organization.

                                     5
Defense Finance and Accounting Service. A senior representative from another
Federal agency has chaired the Defense Finance and Accounting Service committee
since the committee’s inception. The committee provided independent oversight of
the organization’s annual financial statement audit and has helped the organization
maintain its unqualified audit opinion. The committee also performed an annual
review of the Management Letter prepared by the independent public accountant.

Defense Logistics Agency. The Defense Logistics Agency developed Issue
Resolution teams to assist with audit preparedness. Additionally, the agency
established an audit working group to discuss challenges affecting the work of the
Issue Resolution team. The committee received regular briefings from the Issue
Resolution team, the Agency Comptroller, and Chief Information Officer.
Consultants hired by the Defense Logistics Agency have also briefed the committee
on issues affecting the organization’s audit preparedness efforts.

Defense Commissary Agency. The Defense Commissary Agency effectively used
its committee to monitor progress on the annual financial statement audit while
providing continuous feedback to the agency regarding significant audit issues. The
committee has promoted an environment that encourages teamwork and cooperation
among representatives from the Defense Finance and Accounting Service,
organization management, the Inspector General, and the independent public
accountant.

Missile Defense Agency. The Deputy Director for Agency Operations was the
chairperson of the Missile Defense Agency audit committee. Committee members
also included representatives from the Departments of the Army, Navy, and Air
Force. The Executive Director signed a memorandum inviting all external Missile
Defense Agency representatives to participate on the committee.

Defense Information Systems Agency. The Defense Information Systems
Agency audit committee received regular briefings from consultants hired by the
agency regarding the status of the organization’s audit preparedness efforts. The
committee focused on educating the entire agency on the importance of improving
business operations and financial reporting processes. Committee members provided
the agency Director with regular briefings regarding the status of the committee’s
work.

Defense Advanced Research Projects Agency. The Chief of Staff served as the
chairperson of the financial audit advisory committee. The chairperson’s knowledge
of agency operations and programs enhanced other members’ understanding of the
organization and its mission. Committee members also included a technical
representative, who provided briefings on technical issues associated with the
organization’s financial operations. The audit committee charter contains a summary
of the committee’s responsibilities during both audit preparedness and the financial
statement audit.

                                    6
Tricare Management Activity. The committee encouraged virtual participation to
reduce members’ travel costs and time required to attend meetings. External
consultants hired by the organization and the DoD Office of the Actuary
representative have contributed to the committee’s audit preparedness efforts. The
committee has focused on making recommendations to improve the organizations’
financial reporting and business processes.

Service Medical Activity. The Service Medical Activity audit committee was a
component of Tricare Medical Activity. The committee chairperson has invited
members to attend conferences and seminars sponsored by Tricare Management
Activity to increase their understanding of the organization, mission, and current
challenges. The chairperson conducted individual meetings with committee members
to increase their understanding of Tricare operations. Committee members include
representatives from the DoD Office of the Actuary and from the Army, Navy, and
Air Force.

Defense Contract Management Agency. The Defense Contract Management
Agency Director was the chairperson of the audit committee, and members were
senior personnel. The committee effectively used working groups and agency
technical expertise to achieve audit preparedness goals. The committee planned to
establish a Web site to communicate the work of the committee throughout the
agency.

Navy Morale, Recreation, and Welfare and Navy Exchange. The Navy Morale,
Recreation, and Welfare and Navy Exchange audit committee reported to the Board
of Directors of the Navy Exchange Service and the Navy Installations Command.
The audit committee working group briefed the full committee on the status of the
annual financial statement audit. Other committee activities included providing
recommendations for the annual audit plan and reviewing audit reports. The
committee conducted closed executive sessions during meetings. Members have
received formal training on the responsibilities of the audit committee. The
committee has conducted a formal self-evaluation, a review of its charter, and an
evaluation of committee member independence. The committee has provided
briefings to the Board of Directors on current and future committee initiatives.

United States Marine Corps, Personal and Family Readiness Division. The
audit committee advised the Director, Personal and Family Readiness Division, of the
status of audits, reviews, and inspections. The committee was responsible for
monitoring, providing advice, and ensuring the implementation of all report
recommendations. The committee provided advice regarding the resolution and
implementation of audit recommendations. The Chief Financial Officer briefed
members annually on the results of the financial statement audit.




                                    7
Committee Advisors
     DoD Office of Inspector General. Representatives from the Defense Financial
     Auditing Service, DoD Office of Inspector General, performed more than one role to
     support the Department’s financial statement audits. The Office of Inspector General
     acted as advisors to the financial audit advisory committees and committees for audit
     preparedness. In addition, the Office of Inspector General performed oversight of the
     independent public accountant’s work on financial statement audits.

     Advisors. Representatives from the Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer and the Defense Finance and Accounting
     Service served as advisors to DoD financial audit advisory committees. In their
     advisory roles, they have contributed to committees’ efforts to improve business
     processes and overall financial reporting throughout DoD. In some instances,
     representatives from internal audit organizations also acted as advisors to DoD
     financial audit advisory committees.




                                         8
               Financial Audit Advisory Committee
                          Best Practices

A. Financial Audit Advisory Committee Benefits
     Financial audit advisory committees benefit an organization either by helping with
     audit preparedness before financial statements are ready for audit or by providing
     increased confidence in the organization’s financial statements that are ready for
     audit. Parties external to the organization bring independence and objectivity to the
     committee because they are not closely aligned with the organization.

     Benefits Affecting Agency Management. A financial audit advisory committee
     provides management with numerous benefits, including increased oversight of the
     organization’s financial statement audit. Committees for audit preparedness also
     assist management by providing independent advice and recommendations to
     improve the organization’s financial reporting processes and business operations.
     The committees’ review of the organization’s Performance and Accountability Report
     enhances the credibility and quality of the document and provides management with
     suggestions for improvements. Additional benefits to management include educating
     agency personnel on the financial statement audit; acting as liaison among
     management, the financial statement auditors, and consultants; and monitoring the
     organization’s system of internal control.

     Benefits of Independent and Objective Committees. Independent and objective
     financial audit advisory and audit preparedness committees provide significant
     benefits to an organization. The most significant benefits include enhanced
     communication on financial management problems among senior managers, a vehicle
     for resolving differences (especially differences resulting from internal control and
     compliance problems), and increased confidence in the credibility of the
     organization’s financial statements. Most importantly, an audit and financial advisory
     committee provides accountability for financial reporting throughout the organization
     and to the public.

     The committee ensures that the organization achieves the goals and objectives of the
     financial audit, provides expertise on accounting and financial reporting issues,
     provides transparency for the organization, and ensures early identification and
     resolution of audit-related problems. The presence of the committee can prevent
     organizations with unqualified audit opinions from becoming complacent and
     encourages continuous improvements in the organization’s business and financial
     reporting processes. The committee also lends more credibility to the independent
     public accountant’s findings because it acts as an independent third party to review,
     discuss, and evaluate the results of the independent public accountant’s work.



                                          9
      Benefits for Audit Preparedness. Financial audit advisory committees assist with
      audit preparedness in a number of ways that benefit the organization. Committees
      can help ensure that the organization maintains its focus on audit readiness and can
      suggest ways to improve the organization’s business and financial reporting
      processes. The committees can emphasize the importance of fiscal responsibility
      throughout the organization. Committee meetings provide a forum for employees to
      interact with one another and exchange information regarding significant issues
      occurring in their functional areas.


B. Clarifying the Responsibilities of a Financial Audit
   Advisory Committee
      The responsibilities of financial audit advisory committees vary depending on the
      progress that the organization has made on audit preparedness. DoD committees for
      audit preparedness help the organization prepare for audit while simultaneously
      making recommendations to improve internal controls and business processes.
      Committees that are acting as advisors during the annual financial statement audit
      may have responsibilities such as providing oversight and advice, acting as a liaison
      between management and the independent public accountants, monitoring
      management’s internal control program, and educating DoD personnel on the
      importance of the audit and the work of the committee.

      Providing Oversight. The primary responsibility of the committee is to provide
      external oversight for the organization. To fulfill its oversight responsibility for the
      organization’s financial reporting responsibilities, the audit committee should review
      the entity’s annual and interim financial reports. The committee should provide
      recommendations to the organization to ensure that the financial statements are
      understandable, transparent, and reliable. Additionally, the committee should
      conduct a thorough review of the organization’s annual Performance and
      Accountability Report and make recommendations for improvements.

      Acting as a Liaison. The committee should act as a liaison among management, the
      financial statement auditors, and consultants. The committee should review
      management’s comments to the independent public accountant’s findings and
      recommendations. The audit committee should also request deadlines for
      implementing recommendations. Management should be responsible for tracking the
      status of all recommendations and reporting this information to the committee.

      Monitoring Internal Controls. The financial audit advisory committee can make
      recommendations to ensure that the organization has implemented appropriate
      internal controls to address organizational risks, and that those internal controls are
      operating effectively. The committee should work with management to achieve an
      organization-wide commitment to strong and effective internal controls. Periodically,


                                           10
     management can invite the committee to provide recommendations on other issues
     affecting the organization’s financial management and business operations.

     Assisting With Audit Preparedness. When organizations focus on audit
     preparedness, the primary responsibility of committees is to assist in developing
     strategies for improving agency financial reporting and business operations. The
     committee should use the expertise of all members to achieve the goal of audit
     preparedness. Additionally, as needed, functional managers should attend committee
     meetings to assist with formulating recommendations for improved agency
     operations.

     Educating Personnel. DoD committees focused on audit preparedness can support
     management’s efforts by educating personnel regarding the importance of the
     financial statement audit and improved business processes. Developing easy-to-
     understand presentations that do not emphasize accounting and auditing terms is an
     effective method to educate nonfinancial personnel. Areas to emphasize in the
     presentation include the need for compliance with the President’s Management
     Agenda mandate for improved government-wide financial reporting, the effect of
     inefficient financial reporting on the organization’s achievement of its mission, and
     opportunities to save money.

     As a way to educate the organization about the work of the committee, the financial
     audit advisory committee should consider developing a newsletter. The newsletter
     should provide a summary of the committee’s accomplishments and information on
     the organization’s audit preparedness efforts. The newsletter could also feature
     relevant articles from periodicals or newspapers. An example is located on the
     Department of the Navy’s Web site (www.finance.hq.navy.mil/fmc/Prod_Audit.asp).
     Posting the newsletter on the organization’s Web page makes the information
     available to everyone.


C. Working With or on a Financial Audit Advisory
   Committee
     Agency management should ensure that the organization has an understanding of the
     roles of the committee and its members. It is important that all committee members
     understand that they are acting as advisors to the organization. Members should use
     their expertise and experience to develop suggestions and strategies for improving
     financial reporting and business processes. Committees should work with
     management and share suggestions to improve financial management throughout
     DoD.




                                         11
Role of Management
      Management should support the work of the committee. Management can contribute
      to the success of the committee by providing ongoing communication regarding the
      status of the audit and should brief members on changes in financial reporting and
      business operations that might affect the committee’s work. Management should also
      meet with the committee and discuss the results of their work. In addition,
      management should provide the committee with suggestions to improve its
      performance.

Role of the Committee
      The central function of the committee is to increase the accountability of the
      organization. To achieve this goal, the committee should work to ensure trust and
      faith between it and the organization, rather than an “us against them” relationship.
      The committee should collectively work to develop recommendations to improve the
      organization’s financial reporting and business processes.

Role of the Member
      To contribute to the mission and goals of the committee, members should understand
      the essential business of the agency, interpret Federal laws, understand Federal
      financial accounting and reporting requirements, and know Federal requirements for
      systems certifications. Most importantly, members should ask the agency’s top
      managers how they intend to ensure agency compliance with relevant laws and
      regulations. Members should use their expertise and experience to assist with
      mediation and problem solving, as needed.

      Serving in an Advisory Role. Committee members must always remember that
      they serve in an advisory role, not a decision making role. The charter should define
      the role of the member to reinforce the members’ understanding of their role.
      Because the members are not making formal decisions, the effectiveness of the work
      of the committee depends on the amount of energy that members devote to it.

      Communicating the Committee’s Work. Each member should try to communicate
      the work of the committee to show what they are accomplishing. To assist with this
      process, financial audit advisory committees provide members and advisors with
      briefing materials, newsletters, meeting minutes, and meeting agendas. When
      appropriate, members and advisors should make this information available to
      employees in the agency. Communications from members and advisors about the
      work of the committee emphasize the importance of the audit.




                                          12
D. Establishing a Financial Audit Advisory
   Committee
      Establishing a financial audit advisory committee consists of many activities:
      developing a committee charter and mission statement, selecting a chairperson,
      identifying and evaluating the committee composition, and identifying and recruiting
      committee members with the necessary skills to achieve the work of the committee.

        Tips To Consider When Establishing a Committee

            •   Define your goal and adhere to your charter
            •   Maintain open communication with all stakeholders
            •   Maintain open communication with the agency
            •   Select a good leader
            •   Select good members
            •   Train new members
            •   Meet as frequently as necessary



Developing a Charter
      A charter delineates the financial advisory committee’s purpose, composition, roles,
      and responsibilities. Management is usually responsible for providing a draft charter
      for committee review. When creating the committee charter, it is important to specify
      the committee’s authority because members should act as advisors to the
      organization. The following list highlights elements that committees should consider
      including in their charters.




                                         13
              Elements of a Charter

                   •   Committee’s Objectives

                   •   Committee’s Authority

                   •   Committee Composition and Member Tenure

                   •   Committee Roles and Responsibilities

                   •   Member Responsibilities and Expectations

                   •   Reporting Requirements

                   •   Administrative Agreements (frequency of meetings; requirements for
                       attendance; method for assessing committee performance, and
                       frequency of assessments; and method for reviewing the committee
                       charter, and frequency of charter reviews)


            Refer to Appendix C for a sample charter for a Federal Advisory Committee Act-
            Compliant Audit Committee, 4 and to Appendix D for a sample Financial Audit
            Advisory Committee Charter.

            Financial audit advisory committee members should conduct an annual review of
            their charter to reassess the adequacy of the document and determine whether the
            committee is fulfilling its responsibilities. Revisions to the charter may be necessary
            because of changes to laws, regulations, accounting standards, or internal policies.
            The committee can determine the approach used to complete the review of the
            charter. For example, the committee chair can complete the review and then brief the
            full committee on recommendations to revise the charter. Alternatively, the
            committee can complete the review together and propose changes, as appropriate.

            Whoever conducts the review, there are several ways to do it. One is a line-by-line
            analysis of the charter’s content. Although time-consuming, this approach ensures
            that a complete and thorough analysis is conducted. In addition, it may also be
            helpful to compare the results of the analysis to committee meeting minutes and
            agendas to determine the fulfillment of committee responsibilities.

            The committee can also use a “Committee Charter Evaluation Checklist” to evaluate
            the charter. A sample checklist is shown in Appendix E. This checklist summarizes
            the responsibilities of the committee as detailed in the charter. Members should

4
 An audit committee that complies with the Federal Advisory Committee Act includes members outside of the
Federal Government. For background on the Federal Advisory Committee Act, see page 19 of this document.

                                                     14
      review the responsibilities outlined in the checklist and determine compliance with
      overall charter requirements. The committee can use the checklist at any time during
      the year to monitor the committee’s progress on meeting the mission, goals, and
      responsibilities documented in their charter. Additionally, this review approach
      enables the committee to identify specific areas to focus on to ensure that they are
      meeting their responsibilities. It may also be helpful to compare the results of this
      analysis with committee meeting minutes and agendas.

Developing a Mission Statement
      Financial audit advisory committees are encouraged to develop a mission statement.
      The purpose of the mission statement is to guide the committee and reinforce the
      expectations of committee members. The mission statement should summarize the
      general roles and responsibilities of the committee. The committee mission statement
      should remain consistent over time, despite revisions to the committee charter.

       Sample Mission Statement

       The committee oversees the engagement, independence, and services of the
       independent auditor. It also serves as an independent and objective party
       to (1) monitor the financial reporting process and internal control system;
       (2) review and appraise the efforts of the independent auditor and oversee the
       internal audit function; (3) evaluate quarterly financial performance; (4)
       oversee management’s establishment and enforcement of financial policies and
       business practices, as well as compliance with laws and regulations; and (5)
       facilitates communication among the top (insert agency name) leadership and
       the independent auditor, financial and senior management, legal counsel, and
       the internal audit department.



Selecting a Chairperson
      The head of the agency should appoint the financial audit advisory committee
      chairperson. The chairperson does not necessarily have to be an accountant, but does
      need to have a sound financial background. Without this type of experience, the
      chairperson will require a great deal of training, and the time and effort required to
      complete training could potentially reduce the chairperson’s effectiveness. This
      recruiting approach also assists with bringing a different perspective and subject
      matter expertise to the committee. It is also helpful if the chairperson has experience
      in private industry and possesses exceptional critical thinking skills.

      One of the keys to the success of a financial audit advisory committee is the
      effectiveness of the chairperson. The chairperson should be strong, independent, and
      able to lead the other members of the committee. The chairperson should also foster

                                          15
an environment that encourages open communication among members and with
management while keeping the committee focused on results. To effectively lead the
committee, the chairperson should be inquisitive and stay up-to-date on significant
changes in accounting, auditing, and financial reporting requirements to ensure that
the committee’s knowledge of its roles, responsibilities, and relevant best practices is
current.




                                     16
An Effective Chairperson Should:

   •   Lead from the front—decide what the committee is going to achieve, plan a
       schedule, and push it through vigorously, keeping up the momentum

   •   Initiate individual meetings with the Inspector General, Chief Financial Officer,
       and any other officials affected by the work of the committee

   •   Establish the schedule for meetings to ensure that the members have enough
       time to propose recommendations that are effective

   •   Use the agenda both to control meetings (ensure the right topics are covered in
       the right order) and to ensure that members are prepared for meetings

   •   Know the strengths and weaknesses of the other committee members well
       enough to encourage and guide them effectively

   •   Recruit new members if current members do not have the right mix of
       knowledge and experience to give the support needed

   •   Ensure that the committee’s decisions and concerns are reported to the agency
       regularly both orally and in writing

   •   Know or learn enough about the audit and how it is organized to be able to ask
       the independent public accountant probing questions

   •   Ask the independent public accountant for updates on all relevant technical
       developments that will affect the financial statements or the audit

   •   Be alert to indications of the independent public accountant’s unease when
       responding to committee questions and be responsive to requests to consult with
       the auditors alone outside of the meetings

   •   Ask management for regular updates on the status of audit findings

   •   Ensure that the committee has the flexibility to respond quickly to unexpected
       findings, outcomes, and issues

   •   Ensure that the committee does not become entrenched in a routine

   •   Exercise tact, diplomacy, and be inquisitive




                                        17
Constituting a Committee
      The agency head should appoint all committee members. Organizations that decide
      to have a financial audit advisory committee are encouraged to have term lengths that
      provide a balance between maintaining continuity for the committee and enabling the
      committee to continuously provide new ideas for the organization. Therefore, the
      terms of the first appointments should be staggered to avoid complete turnover at any
      time. Also, new agency heads should not automatically replace existing committee
      members with members with whom they are more comfortable.

      A financial audit advisory committee should include at least three members. The
      maximum size may vary, but the committee should be small enough to ensure that
      each member is an active participant. In general, the committee should consist of
      three to five members, depending on the range and complexity of its work.

      Evaluating the Committee Composition. Committee members should review the
      composition of the committee periodically to ensure that the committee has the right
      mix of individuals. The right mix consists of subject matter experts that are necessary
      to execute the work of the committee. It is not uncommon for committees to expand
      or reduce their membership in response to the changing environment in which they
      operate.

      Implementing Audit Preparedness Working Groups. The implementation of
      audit preparedness working groups is also encouraged within the DoD to divide the
      many tasks of the committee. The working group leader should brief the committee
      regarding the status of the group’s work, as needed. However, because the committee
      is composed of senior-level members, the briefings should not be too detailed,
      time-consuming, or technical. Depending on the stage of financial statement
      preparedness, the composition of the group may need to change. The presence of
      audit preparedness working groups encourages the ongoing participation, interest, and
      support of agency senior managers and external members.

Recruiting Committee Members
      Potential recruits should not previously or currently be closely aligned with the
      organization or its operations. However, the risk associated with recruiting members
      external to the organization is that they may not understand the organization, and this
      lack of understanding may affect their performance as committee members.
      Therefore, it is essential to evaluate potential members during the recruitment
      process. New members who are inexperienced with serving on a financial audit
      advisory committee may require a year to adjust to their roles and responsibilities.

      Beyond the skills, experience, and personal attributes needed to conduct the work of
      the committee, potential recruits should have personal credibility and standing in the
      business and financial communities. The recruiting official should evaluate the

                                          18
               potential member’s experience on similar advisory committees at other Federal
               agencies or on similar committees in the private sector. Generally, committee
               members should have experience reviewing and providing advice on management
               issues and acting in a leadership role in their organization.

               Continuity of Membership. For continuity, it is prudent to recruit members who are
               able to serve on the committee for the duration of their appointment. Continuity
               among members enables the committee to retain institutional knowledge of the
               financial statement audit and past audit issues. Continuity also enhances the
               committee’s ability to assist management with identifying long-term trends and
               facilitating improvements in organizational operations.

               Independent Members. The committee should be composed of independent
               members to provide truly effective oversight of the organization’s financial reporting
               process. “Independent” for the purpose of committee membership can be defined as
               independent from management and free from any relationship that would interfere
               with the exercise of independent judgment as a committee member.

               External Members. External members improve the independence and transparency
               of the committee. External members also bring new perspectives to the organization.
               For example, they are able to provide insight regarding methods used in their
               organizations to resolve similar financial reporting obstacles. The committee’s ability
               to solve problems and make recommendations for improved financial reporting
               improves when members do not share the same perspective as the agency they are
               advising. Because external members are independent from the organization, they will
               not be as inclined to take a defensive position when discussing sensitive issues.
               External members generally have a broader vision and may pose questions that an
               internal member would not ask. In general, external members help the organization
               maintain its focus on business processes and financial reporting issues. The Federal
               Advisory Committee Act includes additional guidelines for recruiting audit
               committee members who are external to the Federal Government.

               The Federal Advisory Committee Act applies when the agency head establishes a
               committee to obtain advice or recommendations for himself or herself or for other
               Federal officers in the executive branch, and when the committee is not composed
               wholly of full-time or permanent part-time officers or employees of the Federal
               Government. The Federal Advisory Committee Act requires that meetings:

                        •    be advertised 15 days in advance in the Federal Register,
                        •    be open to the public unless limited statutory basis for closure applies,
                        •    be attended by a Designated Federal Officer, and
                        •    have minutes available for public inspection. 5



5
    Does not apply to closed portions of a meeting.

                                                      19
The Government Accountability Office and the Small Business Administration have
financial audit advisory committees that are compliant with the Federal Advisory
Committee Act.

Recruitment for Audit Preparedness. When an organization is preparing for audit,
the committee’s composition and the subject matter expertise it requires are often
different from those of an organization undergoing an annual financial statement
audit. However, DoD organizations are encouraged to recruit members from external
organizations to assist with DoD audit preparedness efforts. It is important that the
committee not consist of too many internal members or members representing a
single functional area because this can cause the committee to align with a specific
point of view.

Before initiating the recruitment process, the recruiting official should determine the
subject matter expertise necessary to conduct the work of the committee. The
agency’s progress with audit readiness usually determines the necessary subject
matter experts. Suggested areas of expertise include, but are not limited to,
information technology, statistics or actuarial science, human resources, inventory,
and property. As a general practice, to assist DoD efforts to prepare for audit, the
committee should consist of some internal members who are at the Senior Executive
Service level within their organizations and/or possess decision making authority
within the organization. If the committee is not able to recruit Senior Executive
Service members, it should invite them periodically to attend committee meetings.
This approach is especially important when a management problem requires the
support and endorsement of senior managers. Financial audit advisory committees
can also consider recruiting an advisory member from the Government
Accountability Office to assist with audit readiness.

Potential committee members should include those with a functional understanding of
the organization’s internal financial and business operation challenges. However,
when the committee resolves the problem requiring assistance from functional
members, the committee should reevaluate the necessity of their membership.
Organizations that frequently rely on financial data from other DoD organizations
should consider recruiting a member from a component agency to participate in the
work of the committee. This strategy also encourages the exchange of ideas and
participation in other financial advisory committee meetings within the department.
Other factors to consider when recruiting members to assist with audit preparedness
include:

       •   expertise and experience leading an organization through a first-year
           financial statement audit,

       •   experience helping an organization obtain and maintain an unqualified
           audit opinion,



                                     20
             •   understanding of the DoD financial improvement process, and

             •   understanding of DoD culture, mission, and diversity of operations.

Evaluating Committee Member Qualities and Expertise
      Interviews with the candidates help the recruiting official select new members. If the
      recruiting official does not want to conduct a formal interview, there are various
      options to assess the acceptability of a potential candidate—for example, by phone.

      All members should be experts in a specific subject area identified as essential to
      conducting the work of the committee. Collectively, the committee members should
      have an understanding of the following:

             •   Chief Financial Officer’s Act requirements,
             •   Federal information systems requirements,
             •   Federal accounting and financial reporting requirements,
             •   Legal, actuarial, and strategic planning.

      Although there is not an explicit requirement for a Government financial audit
      advisory committee to include members with some level of financial expertise, it is
      generally a good practice. It should be the goal of the Government financial audit
      advisory committee that all of its members have experience in financial matters.
      Management of the organization should be prepared to provide training to members
      who do not have knowledge of financial matters. On the following page are typical
      components of financial expertise.




                                          21
Components of Financial Expertise

   •   An understanding of generally accepted accounting principles
       including accounting and financial reporting guidance issued by the
       Federal Accounting Standards Advisory Board

   •   An understanding of financial statements and Government and private
       sector auditing standards, as well as knowledge of the Single Audit Act
       of 1984, as amended, and Office of Management and Budget Circular
       Number A-133, “Audits of States, Local Governments, and Non-Profit
       Organizations,” Office of Management and Budget Bulletin No. 07-04,
       “Audit Requirements for Federal Financial Statements,” September 4,
       2007, and Office of Management and Budget Circular A-136,
       “Financial Reporting Requirements – Revised,” June 29, 2007

   •   The ability to assess the general application of the above-mentioned
       principles and standards in connection with the accounting for
       estimates, accruals, and reserves

   •   Experience preparing, auditing, analyzing, or evaluating financial
       statements that present a breadth and level of complexity of accounting
       issues that external auditors can reasonably be expected to raise in
       relation to the organization’s financial operations

   •   Experience supervising one or more people engaged in such activities

   •   An understanding of internal controls and procedures for financial
       reporting

   •   An understanding of audit committee functions

   •   A general understanding of the Government environment and specific
       knowledge of the Government sector in which the organization
       operates




                                     22
In addition to evaluating potential members’ technical skills, experience,
independence, and personal credibility, evaluating the following personal qualities
during the interview and on the basis of references’ comments is important.



 Qualities of Committee Members

     •       The ability to act independently and be proactive in advising the
             organization of issues that require further management attention

     •       The ability to ask relevant questions, evaluate the answers, and
             continue to probe for information until completely satisfied with the
             answers provided

     •       Independence of thought

     •       An appreciation of the entity’s culture and ethical values and a
             determination to uphold those values

     •       The ability to encourage openness and transparency

     •       The ability to work with management to achieve improvement in the
             organization

     •       The ability to adequately explain technical matters to other members of
             the committee where members have been chosen for particular
             technical skills



Whatever approach is used to recruit committee members, it is essential to
communicate the following information to the candidate:

         •    Purpose and responsibilities of the committee,
         •    Role of a committee member,
         •    Committee’s reporting relationship within the organization,
         •    Candid summary of the status of the organization’s financial management,
         •    Financial reporting challenges, and
         •    Time required to serve on the committee.

When the recruitment process is completed, the organization should send the person
they select a letter of designation as a formal committee member and a copy of the
committee charter. (See Appendix F for a sample letter of designation.) This final
action in the recruitment process assists with formalizing the appointment and


                                        23
      commitment of the new committee member. As a courtesy, the appointing agency
      should consider following up with a telephone call to determine whether the new
      member has questions regarding the appointment or members’ responsibilities.


E. Operating a Financial Audit Advisory Committee

Orientating and Training Members
      During new member orientation, it is important to educate all new members regarding
      the function and purpose of the committee. The new members should receive
      information on the following topics.

       Orientation Topics

           •    Organization mission, goals, structure, and operations

           •    Assertion* processes and procedures

           •    Size of the organization

           •    Length and complexity of the entity’s financial reports

           •    The degree of the organization’s reliance on data from component
                organizations

           •    Internal controls supporting financial reporting

           •    The degree of the organization’s dependence on financial reporting
                controls external to the entity

           •    Structural weaknesses in the organization

           •    Status of the organization’s audit preparedness efforts

           •    Results of previous audits

       *Assertions are representations by management in financial statements. They can be either
       explicit or implicit and can be classified into the following categories: existence or
       occurrence, completeness, rights and obligations, valuation or allocation, and presentation and
       disclosure. The American Institute of Certified Public Accountants, Statement on Auditing
       Standards 106, “Audit Evidence,” February 2006, identifies 13 financial statement assertions,
       which are grouped into 5 assertions in the President’s Council on Integrity and
       Efficiency/Government Accountability Office Financial Audit Manual, (FAM 235.08).




                                                24
      During orientation, it is helpful for members to receive briefings from functional
      representatives within the organization. Suggested representatives may include
      attorneys, information systems technical experts, and property accountability and
      accounting representatives. The committee chairperson may also conduct individual
      briefings with new committee members.

      Agency management should provide members who do not have a financial
      background with some basic financial information. Suggested information may
      include processes and procedures related to the financial audit and financial reporting.
      This type of basic information is essential to ensure that members understand the
      topics discussed during meetings. The recruiting organization should invite new
      members to attend educational events sponsored by the organization whenever
      possible. The events should highlight the mission, function, and activities of the
      organization. It is also helpful to invite committee members to attend seminars or
      conferences focused on specific issues affecting the work of the organization. The
      education of committee members should be ongoing. Members should receive
      regular briefings on emerging issues that may affect the organization. Emerging
      issues may include Office of Management and Budget updates, changes in accounting
      and auditing requirements, and new legislation.

Essential Resources for Committees
      The organization should ensure that the committee has access to the people and
      information it needs to discharge its responsibilities. Essential resources for financial
      audit advisory committees are the expertise and experience of members and
      information. In addition, it is essential for the committee to have access to the
      independent public accountant, management, and technical experts, as needed. The
      organization also should provide adequate assistance for training committee
      members. The organization can consider using both internal and external training
      providers depending on the needs of committee members. Administrative support is
      also necessary to assist the committee in fulfilling its oversight responsibilities. Most
      importantly, to ensure that the advisory committee is independent, any party external
      to the committee should not filter information or requests for information. For
      example, the committee should make requests for financial information directly to the
      Chief Financial Officer.

      The following information is useful for the committee.

             •   presentations from the independent public accountant or consultants
                 regarding the status of their work are essential to keep the committee
                 abreast of the status of the financial statement audit and of business
                 process improvements;




                                           25
             •   presentations by other organizations regarding their experience with
                 preparing the DoD assertion package;

             •   briefings by organizations that have received unqualified financial
                 statement audit opinions (briefings should highlight both the financial and
                 operational aspects of the financial audit process);

             •   briefings by organizations that highlight success stories regarding the
                 resolution of audit problems; and

             •   regular briefings from the Chief Financial Officer, Inspector General,
                 Chief Information Officer, and agency managers on issues affecting the
                 organization.

      To assist with the dissemination of information, the organization should consider
      providing members’ access to its Web site.

General Activities
      The primary purpose of the financial audit advisory committee is to provide a third-
      party perspective regarding financial reporting problems arising during the financial
      statement audit. It is essential that the committee and independent public accountant
      have open communication throughout all audit phases. The committee should receive
      regular updates on the status of findings, material weaknesses, significant
      deficiencies, control deficiencies, or other issues that may affect the overall audit
      opinion. The committee should review and discuss the following topics.




                                          26
 Committee Focus Areas

     •   Organization’s annual plan

     •   Summaries of the results of audit testing

     •   Future audit steps and audit deliverables

     •   Quarterly financial statements

     •   Annual financial statements

     •   Audit and financial statement timelines and milestones

     •   Government-wide financial indicators

     •   Internal financial indicators

     •   Information technology weaknesses

     •   Changes to regulations and updates on Federal financial reporting
         guidance

     •   Annual briefings on financial statements and all audit findings by the
         independent public accountant



Serving as an Intermediary. The financial audit advisory committee often
mediates among the agency, the Inspector General, the Chief Financial Officer, and
the independent public accountant. While acting as an advisor, the committee should
suggest a course of action that is acceptable to all parties.

Staying Abreast of Agency Operations. The committee should receive regular
briefings regarding the status of audit work performed by the organization’s internal
auditor or by the Inspector General. The committee should also receive periodic
updates from agency managers on the overall management of the organization. When
needed, external parties should brief the committee on topics that may affect the
execution of their oversight responsibilities. It is also helpful to provide the
committee with periodic briefings regarding significant issues addressed in the
Inspector General’s Semiannual Report to Congress; the status of audits and
investigations, as appropriate; and the methodology used to prepare the organization’s
Performance and Accountability Report. The Performance and Accountability Report
contains detailed information on the organizations audited financial statements and

                                     27
      the performance results achieved. The organization submits the report to the
      President, Congress, and members of the public to indicate how well the organization
      performed in managing its programs and finances.

      Assisting With Other Activities. The financial audit advisory committee may assist
      agency senior management with many other activities.


       Other Committee Activities

           •   Assessing the audit plan to determine whether it is aligned with the
               agency mission

           •   Monitoring implementation of audit recommendations and corrective
               actions

           •   Determining the adequacy of budgets and resources requested by
               internal auditors and the independent public accountant

           •   Recommending ways to resolve agency financial reporting challenges
               and improve overall business operations




Meetings With Agency Officials
      Periodically, the committee chairperson should have meetings with the agency head
      or other senior officials to discuss the work of the committee. The meetings should
      highlight the committee’s work and accomplishments. Suggested topics may include
      a summary of committee accomplishments since the last briefing; results of the
      annual charter evaluation, including areas in which the committee met the charter
      requirements and areas identified for improvement; revisions to the charter; and
      results of the committee’s self-evaluation.




                                          28
Reporting
      The financial audit advisory committee should consider participating in the
      presentation of the Performance and Accountability Report by the agency Chief
      Financial Officer and the Inspector General to the head of the agency. The committee
      should consider including an “Audit and Financial Management Advisory Committee
      Report” in the agency Performance and Accountability Report. In general, this report
      should describe the committee responsibilities, significant accomplishments, and the
      results of the committee’s review of the Performance and Accountability Report. See
      the Web sites of the Government Accountability Office (www.gao.gov) and the U.S.
      Small Business Administration (www.sba.gov) for examples.

      The committee’s review of the Performance and Accountability Report enhances the
      credibility of the document. Committee members should request draft copies of the
      Performance and Accountability Report from the agency. All members should be
      required to read the document and make suggestions for improvements. Committee
      comments should also be included as an agenda discussion item. As part of the
      review process, the committee should evaluate any changes in accounting and
      reporting requirements and evaluate their potential effects on the contents of the
      Performance and Accountability Report.

      In addition to reviewing the agency’s Performance and Accountability Report,
      committees engage in numerous types of reporting activities. Some committees are
      responsible for endorsing the agency’s “Management Response to the Independent
      Auditor’s Report,” which is included in the agency’s Performance and Accountability
      Report. Other committees provide annual feedback to the organization regarding the
      presentation of information in the financial statements and also review and comment
      on the organization’s proposed audit plan. Committees should summarize their
      annual recommendations in a letter for review by the head of the agency.




                                         29
Meetings, Agendas, and Minutes
      When preparing for and conducting committee meetings, it is important for members
      to consider the following strategies.

       Meeting Strategies

           •   Committee meetings should accomplish something

           •   Meetings should be short—1 or 2 hours only—and action oriented to
               encourage the participation of all members and advisors

           •   Meetings should start and end on time

           •   Meeting attendance should be limited to participants who are essential
               to fulfill the meeting objectives. Too many observers can hinder the
               free expression of committee members

           •   “Robert’s Rules of Order” should guide meeting procedures

           •   Meetings should occur on the same dates and times

           •   A member who is unable to attend a meeting must send a substitute.
               The committee can consider including this requirement and
               information regarding the authority and responsibilities of meeting
               substitutes in its charter

           •   All members should have the opportunity to present their views at
               each meeting



      Frequency of Meetings. Each committee should determine the number and
      frequency of meetings necessary to fulfill its oversight responsibilities. The
      committee should also engage in informal communication with the organization
      throughout the year. When an audit advisory committee is working toward audit
      preparedness, meetings should be more frequent to ensure that the committee does
      not lose its momentum.

      Checklist. Committees should consider developing a checklist that identifies all
      committee tasks necessary to fulfill oversight responsibilities. (See Appendix G for a
      sample checklist.) The checklist enables the committee to review audit requirements
      either annually or quarterly to ensure that a specific topic does not dominate
      meetings. This committee can also use the checklist to assist with preparing meeting


                                          30
agendas throughout the year. Sample checklist items may include executive session
meetings, meeting with the independent public accountant, and review of draft
financial statements.

Executive Sessions. Committees are encouraged to conduct Executive Sessions
with the Inspector General, Chief Financial Officer, senior management, and the
independent public accountant at least annually. However, the committee may
request an Executive Session at any time. During an Executive Session, those who
are not official committee members should be excluded from the meeting. During the
closed meeting, the committee does not record meeting minutes. Participants are
usually more forthcoming with information on the status of their work in this
environment.

Meeting Preparation and Coordination. The committee should send agendas and
briefing materials to participants at least 1 week before the meeting. Because the
overall presentation of the briefing material can influence members’ interest in the
meeting topics, materials should include colorful charts and handouts that are easy to
read and understand. The committee should provide teleconferencing to encourage
the participation of all members. Virtual participation can increase meeting
attendance and reduce the travel cost and time.

Agendas. The chairperson or committee members should develop the meeting
agendas. This strategy strengthens the committee’s independence from the
organization. It is important that the chairperson and/or committee consider whether
the information is something that members need to know when considering a meeting
topic. In general, the financial audit schedule and meeting discussions generate most
agenda topics.

The chairperson can request agenda topics at the end of each meeting from the group
or request input later from individual committee members. To ensure that the
meetings stay focused and end on time, the agenda should indicate the amount of time
that the committee will devote to each subject area. Members should receive the final
agenda at least 1 week before the meeting. Early distribution of the meeting topics
enables nonvoting members to determine whether their attendance is required.

Minutes. Minutes should be prepared for each meeting unless it is an executive
session. The meeting minutes should provide a record of committee
accomplishments and detail what the committee could not accomplish and why. This
approach ensures an accurate record of all committee activities. The chairperson
should not be responsible for documenting the meeting minutes. It is too difficult for
the chairperson to facilitate the meetings and record meeting minutes. A person
familiar with the subject matter and overall work of the committee should be
responsible for preparing the minutes. Members should receive the draft minutes and
have an opportunity to provide comments before the minutes are final. The
committee can also request comments from the independent public accountant. The
committee should incorporate all relevant comments into the draft minutes before

                                    31
     final distribution to members. Committees should consider creating an executive
     summary highlighting the most significant issues discussed during the committee
     meeting. The summary is a good tool to communicate the work of the committee to
     senior leaders who may not have time to read detailed meeting minutes.


F. Evaluating Performance
     Annual committee performance evaluations provide an opportunity for the committee
     and chairperson to identify opportunities for improving the operation of the
     committee. Committee members should continuously strive to improve performance
     and identify new ways to add value to the organization.

     Formal Evaluations. Financial audit advisory committees should consider
     conducting comprehensive self-evaluations annually. Appendix H contains a sample
     evaluation for committees involved with audit preparedness. A comprehensive
     evaluation for committees performing official oversight activities is located on the
     Web page of the American Institute of Certified Public Accountants
     (www.aicpa.org). The evaluation process ensures that the committee continuously
     assesses and improves its overall performance. The evaluation focuses on the work
     of both the committee and individual members. Members should have the option of
     submitting their evaluations anonymously to an individual external to the committee.
     To ensure confidentiality, the committee chairperson and members should not have
     access to the individual responses. A summary of member responses should be
     prepared and placed on the agenda for discussion.

     Informal Evaluations. The committee can also informally evaluate its performance
     throughout the year. For example, the committee could conduct a roundtable
     discussion and solicit input from members on ways to improve the committee.
     Management could facilitate informal evaluations by developing a Web site where
     members could submit anonymous suggestions to improve the committee. During
     committee meetings, the committee should review the feedback that is provided by
     members, advisors, and observers. Other methods to evaluate the performance of the
     committee include monitoring the completion of committee tasks, the ability of the
     committee to attain milestones, improvements in the organization’s business and
     financial reporting processes, and improvement in the organization’s annual financial
     statement audit opinion.




                                         32
                        Conclusion
Financial audit advisory committees add value to an organization by providing
independent oversight and advice to assist the organization in developing strategies
for enhanced financial reporting and business process improvements. The presence
of the committee provides transparency and accountability for the organization and
the public. Committees composed of the right mix of enthusiastic members and an
effective chairperson provide a resource for both audit preparedness and oversight of
the annual financial statement audit. Additional committee activities may include
reviewing the organization’s audit plan, reviewing the status of corrective actions
taken in response to audit recommendations, and reviewing the organization’s
Performance and Accountability Report. These activities provide benefits to the
organization that may not be achieved without the committee.




                                    33
Appendix A. Scope and Methodology
This review was self-initiated. We reviewed audit and financial advisory committees that were
established for financial statement audits only. We focused on committee activities occurring
within the last two years, when applicable. Areas reviewed included the committee charter,
committee composition, member qualifications, committee activities, and committee resource
requirements. We conducted more than seventy interviews with committee members and
advisors to identify best practices for the committees. Interview questions were developed
through an analysis of the “Gallop Organization, Advisory Committee Engagement Survey,”
March 2005. Additionally, we conducted background research to identify established best
practices for committees operating in both the public and private sectors. The following DoD
organizations participated in the review:

                    •    Office of the Under Secretary of Defense (Comptroller)/Chief Financial
                         Officer, Financial Improvement and Audit Readiness Directorate* 6
                    •    Department of the Army
                    •    Department of the Navy
                    •    Department of the Air Force
                    •    Defense Financial Auditing Service, Office of the Inspector General DoD*
                    •    Defense Advanced Research Projects Agency
                    •    Defense Commissary Agency
                    •    Defense Contract Management Agency*
                    •    Defense Finance and Accounting Service
                    •    Defense Information Systems Agency
                    •    Defense Logistics Agency
                    •    Missile Defense Agency
                    •    Tricare Management Activity
                    •    Navy Exchange Service*
                    •    Naval Installations Command*
                    •    Headquarters, United States Marine Corps, Personal and Family Readiness
                         Division*

Representatives from the following organizations were interviewed and provided information
and related documents as part of this project:

                    •    Office of Management and Budget
                    •    Government Accountability Office
                    •    Department of Agriculture
                    •    Department of Interior
                    •    International Trade Commission
                    •    National Science Foundation
                    •    Small Business Administration

6
    An asterisk indicates that a DoD audit committee is not required.

                                                           34
•   United States Holocaust Memorial Museum
•   United States Postal Service
•   Government Accounting Standards Board
•   KPMG




                             35
Appendix B. DoD Comptroller-Required Audit
            Committees
Entities That Submit Financial Statements to the Office of Management and Budget:

   •   Military Retirement Fund
   •   Department of the Army General Fund
   •   Department of the Army Working Capital Fund
   •   Department of the Navy General Fund
   •   Department of the Navy Working Capital Fund
   •   Department of the Air Force General Fund
   •   Department of the Air Force Working Capital Fund
   •   U.S. Army Corps of Engineers
   •   Medicare Eligible Retiree Health Care Fund

Entities That Submit Financial Statements to DoD:

   •   Defense Finance and Accounting Service
   •   Defense Contract Audit Agency
   •   Defense Logistics Agency
   •   Defense Threat Reduction Agency
   •   Defense Security Service
   •   Defense Commissary Agency
   •   Missile Defense Agency
   •   Defense Information Systems Agency
   •   Defense Advanced Research Projects Agency

Other Entities That Submit Financial Statements to DoD:

   •   National Geospatial Intelligence Agency
   •   Defense Intelligence Agency
   •   National Security Agency




                                             36
Appendix C. Sample Charter for a Federal Advisory
            Committee Act-Compliant Audit
            Committee
                              CHARTER
                           (AGENCY NAME)
        AUDIT AND FINANCIAL MANAGEMENT ADVISORY COMMITTEE

This charter was prepared and filed in accordance with the Federal Advisory Committee Act, as
amended, (FACA) (PL 92-463-5 U.S.C. App. 2), General Services Administration (GSA)
regulations governing Federal Advisory Committee Management (41 CFR paragraph 102-3) and
(Agency Name Standard Operating Procedure)

1.     Official Title. The official title of the advisory committee is the (Agency Name) Audit
       and Financial Management Advisory Committee (“the Committee.”)

2.     Objective and Scope. The committee is established by the Head of (Agency Name) to
       provide recommendations and advice regarding the Agency’s financial management,
       including the financial reporting process, systems of internal controls, audit process and
       process for monitoring compliance with relevant laws and regulations.

3.     Committee Membership. The committee shall be comprised of at least three members,
       including one Chairperson as determined by the Head of (Agency Name), who are free
       from any interest that would interfere with the exercise of independent judgment as a
       member of the Committee. Committee membership must be fairly balanced and diverse
       in terms of occupational background and type of financial expertise.

              3.1.    Qualifications. Committee members must have sufficient financial
                      knowledge and experience to enable them to discharge the Committee’s
                      duties. Each member must be able to: i) understand federal financial
                      statements; and ii) recognize factors affecting the quality of (Agency
                      Name) financial reporting as a basis to make meaningful
                      recommendations about the Agency’s audited financial statements and
                      related financial management policy. (Agency Name) will view favorably
                      candidates possessing a broad accounting background, extensive financial
                      management expertise, and/or significant experience with federal financial
                      management.

              3.2.    Term. Committee members, including the Chairperson, shall serve for a X
                      year term unless (Agency Name) terminates membership sooner.
                      Members will have staggered initial terms of appointments. Members
                      cannot serve for more than X number of consecutive terms.




                                               37
            3.3.    (Agency Name) Employees Prohibited. Committee members shall be
                    independent from the Agency and in this respect shall not be current
                    employees of (Agency Name). Federal employees who are not current
                    employees of (Agency Name) may be eligible for membership so long as
                    the employee’s ethics official provides a statement that no conflict of
                    interest or appearance of a conflict of interest exists.

4.   Time Period. The Committee may require two years to carry out its purpose. (Agency
     Name) may terminate the committee before the end of the 2 year period in accordance
     with 41 CFR paragraphs 102-3.55. The committee will automatically terminate 2 years
     after establishment unless (Agency Name) renews the Committee before the end of the 2
     year period, in accordance with 41 CFR paragraphs 102-3.60.

5.   Designated Federal Officer. The Chief Financial Officer or designee, will serve as the
     Designated Federal Officer for the committee. The Designated Federal Officer’s
     functions and responsibilities are governed by 41 CFR paragraphs 102-3.120.

6.   Support Services. The Designated Federal Officer shall be the main contact for the
     committee, with the assistance and input from (Agency Name) Office of the Chief
     Financial Officer.

7.   Immediate Reporting. The committee shall promptly consult with the Designated Federal
     Officer regarding any significant issues or developments that the Committee determines
     warrant the Agency’s immediate attention. The committee and the Designated Federal
     Officer shall immediately report such matters to the (Agency Name) Head, the Chief
     Financial Officer and the (Agency Name) Inspector General, or their designees, or ensure
     that they have been made aware of such matters through internal reporting mechanisms.

8.   Annual Reporting. The committee shall submit an annual report to the Head of the
     Agency on the Committee’s activities and recommendations.

9.   Access to Government Information, (Agency Name) Officials and Independent Public
     Accountant. The Committee has the authority to: i) review and analyze (Agency Name)
     records that pertain to the committee’s objectives; and ii) meet with agency officials or
     the independent public accountant as necessary to carry out their duties.

            9.1.    Government Information. (Agency Name) records that pertain to the
                    committee’s objectives include but are not limited to: i) audit reports; ii)
                    Agency financial statements, iii) Agency Budgets; iv) documents
                    containing agency financial data; and v) other documents outlining
                    financial reporting procedures or other internal procedures. The
                    committee may not access records containing individual information, such
                    as personnel records, individual financial records or other proprietary
                    information protected under the Privacy Act 5 USC paragraph 552B or
                    under the “Government in the Sunshine,” Act 5 USC paragraph 522a,
                    unless (Agency Name) determines that the disclosure of the information is

                                             38
                     necessary for the committee to carry out its duties and (Agency Name)
                     fully complies with applicable laws and regulations.

             9.2.    (Agency Name) Officials. The committee may meet with and seek
                     information from agency officials, including the heads of components, the
                     Chief Financial Officer, the Inspector General, other members of
                     management and staff.

             9.3.    Independent Public Accountant. Committee members may meet with
                     and seek information from the independent public accountant of the
                     Agency’s financial statements. Committee members may attend the
                     entrance and exit conferences for the annual financial statement audit. At
                     least once per year, the Committee should meet privately with the
                     independent public accountant solely to gather information, conduct
                     research or analyze relevant issues and facts in preparation for a full
                     Committee meeting.

10.   Confidential Information. The Committee may have access to confidential government
      information to form the basis of their recommendations and advice to (Agency Name)
      officials. (Agency Name) records containing confidential government information may
      be available to the committee for inspection only. The committee may not copy, publish
      or distribute any confidential government information, and will not become part of the
      Committee’s formal reports, annual report or official record. The committee members
      shall sign a confidentiality agreement binding them to the same standards as (Agency
      Name) officials.

11.   Duties. In accordance with the committee’s objective, the committee may perform the
      following functions and make recommendations accordingly:

             11.1.   Financial Reporting Process.

             11.1.1. Review with management the financial statements and consider whether
                     they are complete and consistent with public information and Agency
                     records;

             11.1.2. Review with management other sections of the Performance and
                     Accountability Report and consider the accuracy, consistency and
                     completeness of the information;

             11.1.3. Review plans and progress for the improvement of financial management
                     processes and systems;

             11.1.4. Review financial results and performance measures to evaluate progress in
                     achieving financial management objectives and identify areas of risk or
                     concern.


                                              39
11.2.   Systems of Internal Controls.

11.2.1. Review (Agency Name) process for assessing the effectiveness of internal
        controls, the adequacy of management’s assessment, and the progress in
        resolving material weaknesses, audit follow up actions, and other
        management challenges and control issues;

11.2.2. Evaluate the reasonableness of proposed actions for correcting material
        weaknesses;

11.2.3. Review major changes to the (Agency Name) accounting principles and
        practices as suggested by management or the independent public
        accountant.

11.3.   Audit Process.

11.3.1. Advise and consult with the Office of the Inspector General
        regarding their plan for the audit of the Agency’s financial statements,
        including the audit approach, auditor’s responsibilities, and timelines for
        completing the Agency audit;

11.3.2. Review qualitative issues pertaining to the audit of the Agency’s financial
        reporting, including: i) significant accounting policies, ii) management’s
        judgments and estimates used; iii) indicators of fraudulent financial
        reporting or misappropriation of assets; iv) audit adjustments; v)
        disagreements between the auditors and management; and vi) any other
        difficulties the independent public accountant encountered in performing
        the audit;

11.3.3. Review audit results with the independent public accountant
        including recommendations, management responses, and progress in
        implementing corrective actions;

11.3.4. Consult with the Designated Federal Officer and advise management and
        the Office of the Inspector General of any disclosed relationships or
        services that may impact the objectivity and independence of the
        contracted financial statement auditors.

11.4.   Process for Monitoring Compliance with Laws and Regulations.

11.4.1. Review: i) Agency compliance policies; ii) procedures for monitoring
        adherence to Agency compliance policies; iii) material reports or inquiries
        received from Congressional oversight committees; and
        iv) other significant compliance matters which may have a material impact
       on (Agency Name) financial statements.


                                 40
             11.4.2. Review management’s plans for procuring financial management
                     consulting services during the coming year, considering the types of
                     services and projected fees for such services.

             Other.

             11.4.3. Determine the areas in which it wishes to receive further information from
                     management or the independent public accountant; and

             11.4.4. Perform other activities related to this charter as requested by the
                     Agency Head.

12.   Costs. The estimated annual costs are $XX,XXX. The costs include support staff of one
      full time equivalent (FTE), plus time spent by other Office of the Chief Financial Officer
      staff. The costs will be paid by the Office of the Chief Financial Officer. Members of
      the committee serve without compensation.

             12.1.    Reimbursed Travel. (Agency Name) will reimburse the committee
                      members residing outside of the Washington, D.C. metropolitan area, or
                      for whom said area is not their regular place of business, for travel
                      expenses, including per diem, to the extent authorized by 5 U.S.C.A
                      paragraph 5703 and SOP 20 11 5 (Travel). (Agency Name) will allow the
                      committee’s members to fly coach class only and each member normally
                      must travel from, and return to, the member’s place of residence.

             12.2.    Miscellaneous Costs. Annual costs also include miscellaneous operating
                      costs related to the committee activities. Except as expressly stated above,
                      (Agency Name) shall not be responsible for any expenses incurred by, or
                      on behalf, of the committee members as a result of their application to,
                      membership in, and activities on behalf of the committee.

13.   Meetings. The committee will meet at least 4 times a year, to coincide with specific
      management activities. Full meetings must be held for the following purposes: i) to
      present formal reports; ii) to receive oral or written statements from Committee members,
      (Agency Name) officials, the Inspector General or members of the public; iii) to discuss
      policy matters arising from their information gathering activities; and iv) to make
      recommendations directly to (Agency Name) officials or the Inspector General.

             13.1.    Call for Meetings. The Designated Federal Officer, in consultation with
                      the Inspector General, will call the meeting and set the date, place and
                      agenda, or approve meetings and agendas proposed by the Chairperson.




                                               41
             13.2.   Open Meetings. With some exceptions, the committee meetings shall be
                     open to the public, held at a reasonable time in a reasonably accessible
                     manner and place. The Agency Head, the Inspector General, or their
                     designees, and the independent public accountant shall be invited to attend
                     each meeting. The Chairperson or the Designated Federal Officer may
                     invite other (Agency Name) employees to the Committee’s meetings.

             13.3.   Closed Meetings. Meetings may be closed to the public when the Agency
                     Head determines that a closed or partially closed meeting is proper and
                     consistent with the provisions in the “Government in Sunshine Act”, 5
                     USC paragraph 552b (c), and Federal Advisory Committee Act. To
                     request a Committee meeting that will be closed to the public, the
                     Designated Federal Officer must follow procedures set forth in 41 CFR
                     paragraph 102-3.155.

             13.4.   Minutes. The Committee shall establish a formal record of all the
                     proceedings, both open and closed meetings, and decisions through
                     minutes, in accordance with 41 CFR paragraph 102-3.165. The
                     Chairperson must certify the accuracy of the minutes of the committee’s
                     meetings.

14.   Annual Review. The committee, in consultation with the Designated Federal Officer,
      shall review this charter annually and propose amendments to the Head of (Agency
      Name) as necessary to meet the Committee’s objectives.

15.   Filing Date. The date of the filing of this charter is (Day, Month, Year).




                                              42
Appendix D. Sample Financial Audit Advisory
            Committee Charter
               (Agency Name) Financial Audit Advisory Committer Charter

Purpose. The (Agency Name) Financial Audit Advisory Committee (the Committee) is
responsible for reviewing (Agency Name) financial results, audit reports, internal controls, and
adherence to laws, regulations and financial accounting standards. The Committee will assist
(Insert Reporting Component) in fulfilling oversight responsibilities by reviewing the financial
reporting process, the system of internal control, accounting policies and procedures, the audit
process and by overseeing the relationship with the independent public accountant. The
committee should keep an open line of communication between (Insert Reporting
Components), independent public accountant, and (Agency Name) financial management.

Organization. The Committee will be composed of at least three or no more than five members
who are not (Agency Name) employees, are independent of management, and are free of any
relationship that would interfere with the exercise of independent judgment as a Committee
member.

Financial Audit Advisory Committee members are appointed for a two-year tenure. One of the
representatives will be designated as the Committee Chairperson.

The members of the Committee must each be financially literate, and at least one member must
have accounting or financial management expertise.

Roles and Responsibilities. The mission of the Committee is to provide an open avenue of
communication between the top (Agency Name) leadership and the independent public
accountant, financial and senior management, counsel, and the internal audit function. The
Committee will assist (Agency Name) in meeting its objectives by:

       1. Ensuring the timely submission of critical audit documents such as the management
          representation letter, the legal representation letter, and the financial statements to the
          independent public accountant.
       2. Ensuring adherence to Government Auditing Standards.
       3. Reviewing audit contract deliverables.
       4. Ensuring a consistent interpretation and application of accounting standards and
          policies as they relate to the (Agency Name).
       5. Reviewing and providing alternatives to resolve any significant disagreements
          between the auditors and management.
       6. Reviewing the overall results of the financial statement audits and identifying actions
          necessary to correct the deficiencies.




                                                 43
       7. Reviewing the results of the independent assessment of those line items or financial
           statements that have been asserted as audit ready by management to determine
           whether specific deficiencies identified and recommendations are appropriate.
       8. Reviewing the scope of the independent public accountant’s proposed audit for the
           current year and reviewing the annual audit report, which is subsequently produced.
       9. Following each meeting, reporting on the proceedings of the Committee to Agency
           management.
       10. Reassessing the adequacy of the Committee charter annually.

Support Staff. The work of the Committee will be the responsibility of its members. The
Office of (insert responsible office) will provide administrative and technical support to the
Committee. The support will include: (1) scheduling meetings; (2) preparing agendas; (3)
preparing background materials, briefing slides; and (4) preparing minutes of the meetings.

Working Groups. The Committee may establish working groups or sub-groups of its members
and others as necessary to advise it on a range of accounting and auditing issues that come
before it.

Committee Expectations. The Committee must understand the appropriateness and application
of federal accounting concepts and practices. The Committee must fulfill its fiduciary
responsibilities, understand the operations of the (Agency Name), stay abreast of the current
financial statement issues, and monitor the audit process. The committee should provide
recommendations and guiding principles for improving the effectiveness of the financial
statement process and overall business operations.

The Committee will consider management’s response to the risks inherent in the (Agency
Name) and incorporate them into its agenda. Understanding the (Agency Name) financial
statement process is crucial for committee members who will oversee the financial integrity of
the (Agency Name).

The following guiding principles have been applied in developing the substantive content of the
Committee charter:

       •     Establish the Committee’s role in monitoring the audit process;
       •     Encourage independent communication and information flow between the
             Committee and the independent public accountant; and
       •     Conduct candid discussions with (Agency Name) management and the independent
             public accountant regarding issues affecting the judgment and quality.

       Audit Committee Meetings:

       Meeting Frequency. The Committee meetings will be scheduled monthly or as
       determined by the committee during the performance of the audit to ensure prompt
       resolution of issues. Any committee member may request a special meeting whenever
       issues surface which require immediate discussion. Matters can be referred to the


                                                44
Committee by members, or by a member of the (Agency Name) financial management
organization. The referral must be in writing and clearly describe the accounting or
audit issue.

Meeting Agenda. The (insert responsible office) will be responsible for scheduling the
Committee meetings and preparing the agenda. Prior to a normally scheduled meeting,
that office will circulate a tentative agenda for review and comment. The tentative
agenda will propose the time, discussion topics, and location. To facilitate the
development of the agenda and to stay abreast of recent developments, the committee
chairperson should communicate with the independent public accountant between
meetings to discuss pertinent accounting and audit issues.

A comprehensive agenda guides members in focusing on their mission. The Committee
will assess what is currently important and develop its agenda accordingly. The
following topics deserve consideration:

Risk Assessment
   • Review of financial community expectations
   • Legal briefings

Assess Process Relating to Control Environment
   • Financial statements
   • Management overview of financial results for the year
   • Accounting policies
   • Significant and unusual transactions and accounting estimates

Evaluate the Independent Audit Processes
   • Coordination of the independent audit effort and definition of responsibilities
   • Assist in defining the scope, procedures, reports, and timing of the audit effort by
       the independent public accountant.

Audit Committee Structure
   • Update of the charter
   • Assessment of the Committee performance

Working Relationships:

Relationship with Management. To be able to perform its duties, the Committee must
receive timely information. The Committee should be aware of the (Agency Name)
strategic financial objectives, the procedures implemented to accomplish them, and
regular evaluations of progress toward meeting these objectives. Frequent
communication with management will be maintained to assist the auditors with
evaluating the environment of the (Agency Name) financial reporting.




                                        45
Working with the Auditors. The Committee’s relationship is important because it
provides the auditors with an independent assessment of the external reporting
requirements and the (Agency Name) internal systems. The Committee may request and
evaluate the results of special projects and review audit results to ensure that the (Agency
Name) complies with accounting standards. The Committee members should keep their
respective communities advised of pertinent issues under consideration. The Committee
acts in an advisory role to the Head of the (Agency Name).




                                         46
Appendix E. Sample Committee Charter Evaluation
            Checklist
Number     Source                           Responsibility                                       Action
  1         Charter                Review and update charter annually                Reviewed at 4/03/2006 committee
         Page 1, Para. 2                                                                         meeting
  2         Charter          Generally assist the Agency with oversight of the
         Page 2, Para. 1                         following:

                           - financial statements and financial reporting process         Reviewed interim or final
                                                                                       financial results at 5 committee
                                                                                                    meetings
                                       - systems of internal controls                     Specifically address by the
                                                                                     independent public accountant at
                                                                                             2 committee meetings
                                    -Inspector General’s audit function              Specifically addressed by OIG on
                                                                                                    9/12/2006
                            -compliance with legal and regulatory requirements             Specifically addressed in
                                                                                      executive session on 11/14/2006
                             -annual independent audit of financial statements              The independent public
                                                                                            accountant provided an
                                                                                     unqualified opinion in 11/15/2006
  3         Charter            Maintain free/open communication with the                   The independent public
         Page 2, Para. 1   independent public accountant, IG, and Management              accountant, IG, CFO, and
                                                                                        General Counsel attend every
                                                                                              committee meeting
  4         Charter          Oversee financial reporting process, report to the       Chairperson presents a report to
         Page 2, Para. 3                         Agency                                the Agency on each committee
                                                                                                     meeting
  5         Charter        Set tone for sound business practice/ethical behavior      Committee meetings are formal;
         Page 2, Para. 3                                                                    the independent public
                                                                                      accountant, IG, General Counsel
                                                                                                at each meeting.
  6         Charter        Establish a clear understanding that auditors report to   Completed at 11/14/2006 meeting
         Page 3, Para. 1                      the Agency Head
  7         Charter               Review auditors performance and make               Completed at 11/14/2006 meeting
         Page 3, Para. 1              recommendations to the Agency
  8         Charter             Discuss OIG’s audit plans, staffing, budget          Completed at 09/12/2006 meeting
         Page 3, Para. 2
  9         Charter             Discuss propriety of accounting treatments           Completed at 11/16/2006 meeting
         Page 3, Para. 2
  10        Charter          Review adequacy/effectiveness of accounting and         Completed at 11/14/2006 meeting
         Page 3, Para. 2                   financial controls
  11        Charter            Review systems to monitor and manage risk             Completed at 11/14/2006 meeting
         Page 3, Para. 2
  12        Charter        Meet with OIG and the independent public accountant       Completed at 11/14/2006 meeting
         Page 3, Para. 2               without management present
  13        Charter        Invite OIG and the independent public accountant to       Completed at 11/14/2006 meeting
         Page 3, Para. 2                  address the Committee
  14        Charter                  Review interim financial results                    Reviewed at 3 committee
         Page 3, Para. 3                                                                       meetings

  15        Charter          Discuss any communications required by GAAP             Completed at 11/14/2006 meeting
         Page 3, Para. 3




                                                      47
Number     Source                          Responsibility                                     Action
  16        Charter             Review audited financial statements with           Completed at 11/14/2006 meeting
         Page 4, Para. 1     management, OIG, and the independent public
                                                accountant
  17        Charter         Discuss quality, propriety and clarity of statements   Completed at 11/14/2006 meeting
         Page 4, Para. 1.
  18        Charter         Discuss annual audit with the independent public       Completed at 11/14/2006 meeting
         Page 4, Para. 1                      accountant
  19        Charter                     Hold regular meetings                          7 meetings held in 2006
         Page 4, Para. 1
  20        Charter                 Review auditor’s annual audit plan                 Completed at 3/28/2006
         Page 4, Para. 1                                                                 committee meeting




                                                     48
Appendix F. Sample Committee Member
            Appointment Letter
Member Name                                                                             Date
Address

Dear Mr./Ms. XXXX:

        You have been selected to participate on the (Agency Name) Financial Audit Advisory
Committee. The committee looks forward to your expertise, support, and active participation
during this year’s audit. For your information, a copy of the Financial Audit Advisory
Committee Charter is enclosed. The charter provides guidance on the purpose and
responsibilities of the committee and its members.

        We look forward to the level of (Agency Name) experience and professional work ethics
that you bring to the audit process. If you have any questions or concerns throughout the year,
please contact, (Insert Name and Contact Information).


                                          Sincerely,


                                         (Signature)

Enclosure:
As stated




                                              49
       Appendix G. Sample Committee Annual Activity
                   Checklist
                                                                       Jan-      April-
                                                                      March      June     July-Sept   Oct-Dec
                Responsibility                    Frequency           Quarter   Quarter    Quarter    Quarter
Committee Meetings
1. Schedule meetings for the fiscal year.           Annually                                            X
2. Review and approve meeting minutes.              Quarterly           X         X          X          X
3. Meet in Executive session with:                  Annually                      X
     Chief Financial Officer                      Semi-Annually         X                    X
     Internal Auditor                             Semi-Annually         X                    X
     Independent Public Accountant                Semi-Annually         X                               X
     Committee Members                            Semi-Annually         X                    X
     Inspector General                            Semi-Annually         X                               X
     Others, as appropriate
Oversight of the Independent Public
Accountant                                          Annually            X
1. Provide input regarding the selection of the
   independent public accountant.
2. Meet with the independent public                                               X
   accountant to obtain an understanding of         Annually
   factors considered by them in determining
   audit scope.
3. Determine and approve extent of any            As necessary
   nonaudit services.
4. Review with the independent public                                             X
   accountant the firm’s internal quality
   control procedures, any material issues          Annually
   raised during most recent peer review, and
   any corrective actions taken.
5. Review and evaluate the independent              Annually            X
   public accountant’s independence.
6. Review with the independent public                                                                   X
   accountant any problems or difficulties          Annually
   that they may have encountered in
   connection with the audit.
7. Discuss with the independent public                                                                  X
   accountant and management scope and              Annually
   quality of internal controls in effect.
8. Review any management letter or other            Annually                                            X
   material communications from the
   independent public accountant and
   management’s response to that
   communication.




                                                                 50
                                                                       Jan-      April-
                                                                      March      June     July-Sept   Oct-Dec
              Responsibility                        Frequency         Quarter   Quarter    Quarter    Quarter
Oversight of Financial Statements
1. Obtain Draft financial statements for             Annually                                           X
   review and approval
2. Review with management and external
   auditors draft financial statements to
   include:
     -Significant transactions outside ordinary
      operations
     -Changes to accounting principles               Annually                                X
     -Material correcting accounting
      adjustments
     -Process in formulating accounting
      estimates
     -Risk assessment and risk management
3. Review with General Counsel current or            Annually                                X          X
   pending litigation
Agency Oversight
1. Review and approve annual internal audit          Annually                                X
   plan identifying audit scope and coverage.
2. Obtain briefings on internal audit activities.    Quarterly          X         X          X          X
Risk Management
1. Obtain an understanding of the agency’s           Annually           X         X          X          X
   internal control and risk management
   policies.
2. Discuss with management the                       Annually                     X
   organization’s major risk exposures, the
   adequacy of accounting and financial
   controls, and steps management has taken
   to monitor and control such exposures.
3. Review and approve updated internal risk          Annually                     X
   assessment model




                                                                 51
Appendix H. Sample Audit Preparedness Committee
            Self-Evaluation Questionnaire

     Audit Preparedness Committee Self-Evaluation Questionnaire

   The following series of statements is designed to obtain your comments regarding the
   performance of the Committee as a group. It is intended to enhance the Committee’s
   overall effectiveness. Please indicate your responses to the statements, by circling the
   appropriate number, using the following scale:

      •   1 – Strongly Agree
      •   2 – Agree
      •   3 – Undecided
      •   4 – Disagree
      •   5 – Strongly Disagree

   Evaluation Questions                                         Recommendation for
                                                                Improvement

   1. The Committee functions efficiently        1 2 3 4 5      _________________
      and effectively.

   2. The Committee effectively oversees
      the internal auditors, independent
      public accountants, and consultants        1 2 3 4 5      _________________

   3. The Committee understands the
      organization’s internal control
      and risk management policies.              1 2 3 4 5      _________________

   4. The Committee is both
      sufficiently challenging and supportive
      of management.                          1 2 3 4 5         _________________

   5. The Committee appropriately
      reviews the quarterly financial
      statements.                                1 2 3 4 5      _________________

   6. The Committee has the appropriate
      number of meetings per year.               1 2 3 4 5      _________________




                                            52
      7. The Committee is satisfied with the
         materials received in advance of and
         at Committee meetings.                    1 2 3 4 5      _________________

      8. The time at the Committee meetings
         is utilized effectively.                  1 2 3 4 5      _________________

      9. The appropriate agency personnel
         and outside experts are present at
         Committee meetings.                       1 2 3 4 5      _________________

      Additional Comments

      Are there any topics not covered in this questionnaire that you feel should be addressed
      to evaluate the Committee’s performance?

      ________________________________________________________________

      ________________________________________________________________

      ________________________________________________________________


____________________________                                              ___________
Committee Member’s Name (optional)                                        Date




                                              53
Appendix I. Resources for Committees
American Institute of Certified Public Accountants (www.aicpa.org)
Audit Committee Effectiveness Center (www.aicpa.org/audcommctr)
Antifraud and Corporate Responsibility Resource Center (www.aicpa.org/antifraud)
Association of Certified Fraud Examiners (www.cfenet.com)
Association of Government Accountants (www.agacgfm.org)
Committee of Sponsoring Organizations of the Treadway Commission (www.coso.org)
Ethics Officers Association (www.eoa.org)
Ethics Resource Center (www.ethics.org)
Institute of Internal Auditors (www.theiia.org)
Institute of Management Accountants (www.imanet.org)
IT Governance Institute (www.itgi.org)
KPMG Audit Committee Institute (www.kpmgauditcommitteeinstitute.com)
National Association of College and University Business Officers (www.nacubo.org)
National Association of State Auditors, Comptrollers and Treasurers (www.nasact.org)
U.S. Government Accountability Office (www.gao.gov)
U.S. Office of Management and Budget (www.whitehouse.gov/omb/index.html)

Resources for Corporate Governance and Publicly Traded Company Audit Committees

American Society of Corporate Secretaries (www.acsc.org)
Business Roundtable (www.brtable.org)
Conference Board (www.conference-board.com)
Corporate Board Member (www.boardmember.com)
Financial Executives International (www.fei.org)
Harvard Business School’s Corporate Governance, Leadership & Values (www.cglv.hbs.edu)
National Association of Corporate Directors (www.nacdonline.org)
New York Stock Exchange (www.nyse.com)
The Corporate Library (www.thecorporatelibrary.com)




                                             54
Appendix J. References
KPMG, LLP, “Financial Management Advisory Committees for Federal Agencies, Suggested
Practices,” March 2003

AICPA Web site, “The AICPA Audit Committee Toolkit: Government Organizations”

The Gallup Organization for General Services Administration Office of Government-wide Policy
Best Practices Report, “Advisory Committee Engagement Survey,” March 2005

The CPA Journal, “Can Audit Committees Prevent Management Fraud?,” January 2007

The Institute of Internal Auditors, “The Audit Committee: Purpose, Process, Professionalism”

The Institute of Internal Auditors, “Internal Auditor’s Role in Corporate Governance,” 2003

Deloitte and Touche, “Keeping Directors on Course, Audit Committees, a Better Practice
Guide,” 2004

Deloitte and Touche, “Audit Committee Resource Guide”, 2003

Australian National Audit Office, “Public Sector Audit Committees, A Better Practice Guide,”
2005

PriceWaterhouseCoopers, “Current Developments for Audit Committees,” 2006

Report of the National Commission on Fraudulent Financial Reporting (COSO), 1987

Federal Advisory Committee Act, 5 USC, Appendix 2, October 1972




                                              55
Appendix K. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, United States Army Corps of Engineers

Department of the Navy
Commandant, United States Marine Corps
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Navy Exchange Service
Commander, Naval Installations Command
Director, Personal and Family Readiness Division,
  Headquarters, United States Marine Corps


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Missile Defense Agency
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Contract Management Agency
Director, Tricare Management Activity




                                             56
